AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

  MENTORING GRANTS ADMINISTERED BY 

         PEOPLE FOR PEOPLE, INC. 

      PHILADELPHIA,PENNSYLVANIA 



        U.S. Department of Justice 

      Office of the Inspector Genera l 

               Audit Division 


       Audit Report GR-70-13-007 

              August 2013 



     REDACTED - FOR PUBLIC RELEASE
           AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

             MENTORING GRANTS ADMINISTERED BY

                   PEOPLE FOR PEOPLE, INC.

                 PHILADELPHIA, PENNSYLVANIA


                             EXECUTIVE SUMMARY1

       The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of the Office of Justice Programs (OJP),
Office of Juvenile Justice and Delinquency Prevention mentoring grant,
number 2007-JU-FX-0007, and OJP, Bureau of Justice Assistance mentoring
grant, number 2008-DD-BX-0377, awarded to People for People, Inc. (PFP)
of Philadelphia, Pennsylvania. The total award for the two grants was
$979,689 and was to be used to expand PFP’s mentoring children of
prisoners program. The objective of the grants was to deliver services that
provide children of prisoners with the necessary intellectual, social, physical,
and psychological/emotional supports to be ready and able productive
members of society.

      The objective of our audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grants. We also evaluated PFP’s program performance in
meeting grant goals and objectives and overall accomplishments.

      We determined that PFP was in material non-compliance with the grant
requirements we tested. Specifically, we reviewed PFP’s compliance with
essential grant conditions and found material weaknesses in PFP’s
management of grant expenditures. For the two grants, we questioned
$688,317 of the grants as unallowable expenditures, including $420,729 in
unallowable salaries and fringe benefits, $34,834 in unallowable
expenditures, and $232,754 in unallowable indirect costs. We also found
that PFP was unable to support $205,128 in expenditures and drawdowns
related to the grants. As a result, we questioned a total of $893,445 in
grant-related expenditures. 2

       1
         The full version of this report contains information that may be protected by the
Privacy Act of 1974, 5 U.S.C. §552(a) or may implicate the privacy rights of identified
individuals. Therefore, the Office of the Inspector General redacted portions of the full report
to create this public version of the report.
       2
          During this audit, we identified certain issues requiring further investigation. We
referred those matters to the OIG’s Investigations Division, and put our audit on hold
pending such investigation. Subsequently, we were able to complete our audit and issue
this report.


                                               -i­
      In addition to the questioned costs, we identified seven management
improvement findings related to internal controls, drawdowns, financial and
program reporting, budget management, and program performance.
Specifically, we determined that PFP did not submit Federal Financial Reports
(FFRs) and progress reports on time. We also found PFP could not support
the drawdown requests, FFRs, and progress reports submitted and did not
adhere to the approved budgets. Finally, PFP did not meet the goals and
objectives of the grants.

     These items are discussed in further detail in the Findings and
Recommendations section of this report. The objectives, scope, and
methodology for this audit appear in Appendix I.

      We discussed the results of our audit with PFP officials and have
included their comments in the report, as applicable. However, during the
exit conference, a PFP official stated he was unable to provide detailed
responses to the findings because he was not involved with the grant
administration at the time the grants were active, and those who were
responsible are no longer with the organization. Additionally, we requested
a response to our draft report from PFP and OJP, and their responses are
appended to this report as Appendix III and IV, respectively. Our analysis of
both responses, as well as a summary of actions necessary to close the
recommendations can be found in Appendix V of this report.




                                     -ii­
                                TABLE OF CONTENTS



INTRODUCTION ........................................................................ 1


Office of Justice Programs............................................................. 1

Office of Juvenile Justice and Delinquency Prevention....................... 2

Bureau of Justice Assistance ......................................................... 2

People for People, Inc. ................................................................. 2

Our Audit Approach ..................................................................... 3


FINDINGS AND RECOMMENDATIONS........................................ 5


Internal Control Environment ....................................................... 5

Grant Expenditures ..................................................................... 6

Drawdowns................................................................................11

Reporting .................................................................................12

Budget Management and Control..................................................13

Program Performance and Accomplishments ..................................14

Compliance with Other Grant Requirements ...................................17

Conclusions ...............................................................................17

Recommendations ......................................................................18


APPENDIX I - OBJECTIVES, SCOPE AND METHODOLOGY .........19


APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS.....21


APPENDIX III - PEOPLE FOR PEOPLE, INC. RESPONSE

    TO THE DRAFT AUDIT REPORT ........................................22


APPENDIX IV - OFFICE OF JUSTICE PROGRAMS RESPONSE

    TO THE DRAFT AUDIT REPORT ........................................33


APPENDIX V - OFFICE OF THE INSPECTOR GENERAL
    ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
    TO CLOSE THE REPORT....................................................38

                               INTRODUCTION

       The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of the Office of Justice Programs, Office of
Juvenile Justice and Delinquency Prevention mentoring grant, number
2007-JU-FX-0007, and Bureau of Justice Assistance mentoring grant,
number 2008-DD-BX-0377, awarded to People for People, Inc. (PFP). The
total award for the two grants was $979,689 and was to be used for the
expansion of PFP’s mentoring children of prisoners program. The objective
of the grants was to deliver services that provide children of prisoners with
the necessary intellectual, social, physical, and psychological/emotional
supports to be ready and able productive members of society.

      The purpose of our audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grants. We also evaluated PFP’s overall program
performance and accomplishments in meeting the objectives of the grants
for the funded program. Our audit covered the period between the start of
the initial grant award in October 2007 to the closure of the initial grant in
September 2010. As shown in the table below, PFP was awarded a total of
$979,689 to expand the mentoring program.

                  Office of Justice Programs Grants to
                         People for People, Inc.


    Grant Award             Award       Award
                                                     Award Amount
      Number              Start Date   End Date
 2007-JU-FX-0007          10/1/2007    09/30/2010         $  666,667
 2008-DD-BX-0377          09/1/2008    11/30/2009            313,022
     Total                                                $ 979,689
Source: OJP grant files

Office of Justice Programs

      The Office of Justice Programs (OJP), within the Department of Justice,
provides primary management and oversight of the grants we audited. OJP
works to assist federal, state, local, and tribal justice systems by
disseminating state-of-the art knowledge and practices across America, and
providing grants for the implementation of these crime fighting strategies.
Because most of the responsibility for crime control and prevention falls to
law enforcement officers in states, cities, and neighborhoods, the federal
government can be effective in these areas only to the extent that it can



                                       -1­
enter into partnerships with these officers. Therefore, OJP does not directly
carry out law enforcement and justice activities. Instead, OJP works in
partnership with the justice community to identify the most pressing crime-
related challenges confronting the justice system and to provide information,
training, coordination, and innovative strategies and approaches for
addressing these challenges.

Office of Juvenile Justice and Delinquency Prevention

      The Office of Juvenile Justice and Delinquency Prevention, a
component of OJP, through comprehensive and coordinated efforts at the
federal, state, and local levels, works to provide national leadership,
coordination, and resources to prevent and respond to juvenile delinquency
and victimization. The Office of Juvenile Justice and Delinquency Prevention
works to do this by taking actions to strengthen the nation's juvenile justice
system, and support prevention and early intervention programs that are
making a difference for young people and their communities.

Bureau of Justice Assistance

      The Bureau of Justice Assistance, another component of OJP, provides
assistance to local criminal justice programs to improve and reinforce the
nation’s criminal justice system. The Bureau’s goals are to reduce and
prevent crime, violence, and drug abuse, and to improve the way in which
the criminal justice system functions.

People for People, Inc.

       According to its website, People for People, Inc. (PFP) is a not-for­
profit organization, created by Reverend Herbert H. Lusk, II in 1989 and
incorporated in 1991 for the purpose of community economic development
and the promotion of education and entrepreneurship in North Central
Philadelphia, Pennsylvania. PFP further explains on its website that the
majority of the children and families it serves are predominately low-income
African-Americans, more than half of whom live in single-parent family
groups.

      PFP’s mission is to break the generational cycle of poverty in the lives
of local residents by providing them with the necessary tools they need to
abandon gangs, drugs, welfare dependency and crime and to create new,
stable, self-sustaining lives for themselves and their families.




                                     -2­
Mentoring Program

       According to PFP’s website, there are millions of children in this
country who suffer the pain and loneliness associated with missing one of
their parents for a variety of reasons, including incarceration, divorce,
abandonment, estrangement, death, or lack of knowledge concerning
paternity. Research demonstrates that children growing up without one or
the other parent figure in their lives experience a less emotionally-rich and
nurturing childhood as children who live with two parents, which means less
help with homework, less one-on-one time with the remaining parent, and
thus less guidance and help with problems or time spent together sharing
enriching experiences. PFP created a mentoring program designed to match
mentors with children who need them to help fill this need, and mentors are
paired with children with whom they will spend time each week.

      In addition to the two OJP grants funding PFP’s mentoring program
during the period of our review, PFP also received a grant from the
Department of Health and Human Services (HHS). According to PFP
documentation, the OJP funded program during the period was titled
Mentoring Children of Purpose; while the HHS funded program was titled
Mentoring Children of Prisoners. According to a PFP official, both the HHS
and OJP funding supported the same mentoring program.

Our Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the grants. Unless otherwise stated in our report,
we applied the OJP Financial Guide as our primary criteria during our audit.
The OJP Financial Guide serves as a reference manual assisting award
recipients in their fiduciary responsibility to safeguard grant funds and
ensure that funds are used appropriately and within the terms and
conditions of the awards. We tested PFP’s:

  •	 Internal control environment to determine whether the financial
     accounting system and related internal controls were adequate to
     safeguard grant funds and ensure compliance with the terms and
     conditions of the grants.

  •	 Grant expenditures to determine whether the costs charged to the
     grants were allowable and supported and properly allocated.

  •	 Drawdowns (requests for grant funding) to determine whether
     PFP’s requests for reimbursement or advances were adequately




                                    -3­
     supported, and if PFP managed grant receipts in accordance with
     federal requirements.

  •	 Reporting to determine whether the required Federal Financial Reports
     and progress reports were filed on time and accurately reflected grant
     activity.

  •	 Budget management and control to determine whether PFP adhered
     to the OJP-approved budget for expenditures of grant funds.

  •	 Program performance and accomplishments to determine whether
     PFP achieved grant objectives, and to assess performance and grant
     accomplishments.

  •	 Compliance with other grant requirements to determine whether
     PFP complied with the terms and conditions specified in the individual
     grant award documents.

    When applicable, we also test for compliance in the areas of program
income, matching funds, and monitoring subrecipients and contractors. For
these grants, we determined that PFP generated no program income, had no
matching funds required, and had no subrecipients or contractors.




                                    -4­
                   FINDINGS AND RECOMMENDATIONS

           COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

       From our audit, we determined that PFP was in material non­
       compliance with the essential grant requirements we tested.
       Specifically, we found: (1) grant expenditures that were
       unallowable because they were not in the approved budget or
       were not a permissible use of funds; (2) grant expenditures that
       were unsupported because of inadequate documentation;
       (3) weaknesses in grant reporting, including late Federal
       Financial Reports and progress reports that were late and
       unsupported; and (4) failure to meet program goals and
       objectives. As a result of these deficiencies, we questioned a
       total of $893,445 of the funding received by PFP as of
       September 1, 2010. These conditions, including the underlying
       causes and potential effects on the OJP program, are further
       discussed in the body of this report.

Internal Control Environment

       According to the Office of Management and Budget Circular A-133, PFP
was required to engage independent auditors to perform an annual Single
Audit. The due date for the Single Audit report was no later than 9 months
after the end of PFP’s fiscal year, and PFP’s fiscal year runs from July 1
through June 30. 3 We found that PFP’s Single Audit Report, combining years
ending December 31, 2007 and 2008, was issued on October 8, 2009, over
a year late for the due date covering a 2007 report. The 2009 single audit
was due March 2010, and was issued in September 2010, 6 months late (the
Department of Health and Human Services (HHS) is the cognizant agency
for PFP’s Single Audits). 4 During our audit, HHS had neither received the
single audit for FY 2010, which was due March 2011, nor had it received the
FY 2011 audit which was due March 2012.

       The combined 2007 and 2008, and 2009 Single Audits contained
significant internal control and accounting issues and weaknesses. A few

       3
           Prior to 2009, PFP’s fiscal year ran from January 1 through December 31.
       4
           All non-federal entities that expend $500,000 or more of federal awards in a year
are required to obtain an annual audit in accordance with OMB Circular A-133. A single
audit is intended to provide assurance of proper management and use of federal funds.
According to the OMB Circular A-133, the cognizant agency for audit shall be responsible for
coordinating a management decision for audit findings that affect the programs of more
than one federal agency.



                                            -5­
examples of the internal control weaknesses contained in the single audits
are: missing documentation and approval for disbursements; missing time
sheets; financial reports not submitted timely; allocated occupancy
expenditures, such as rent and utilities, based on payroll costs; inadequate
documentation of training of the mentors participating in the mentoring
children of purpose program; and lack of controls over related-party rent
paid with grant funds. HHS is working with PFP to resolve the findings.

      According to the OJP Financial Guide, the recipient of a grant award is
responsible for establishing and maintaining an adequate system of
accounting and internal controls. As the 2009 Single Audit showed similar
results, the Single Audits show that PFP has a history of poor internal
controls. Additionally, during our audit, we determined that PFP’s system of
internal controls was inadequate to safeguard, document, and properly
account for grant funds. The absence of an adequate and effective internal
control environment places grant funds at significant risk and undermines
the ability of the grant recipient to ensure that federal funds are being
adequately safeguarded and spent properly in accordance with the grant
objectives.

      We recommend that OJP coordinate with HHS to ensure the Single
Audit findings are addressed and ensure PFP can adequately safeguard,
document, and properly account for grant funds. This is critical since, in
addition to the grants discussed in this report, PFP currently has an OJP
Adult Offender Mentoring grant in the amount of $300,000. As of April
2013, PFP had drawn down $70,000 of the grant funds for the program.

Grant Expenditures

      As discussed above, a grantee is responsible for establishing and
maintaining an adequate financial system and accounting records to
accurately account for funds awarded. This financial system should include
valid accounting methodology that can provide accounting records that
completely and accurately report the data for a grant to ensure that the
objectives of the grant are met. An adequate system of accounting may also
help reduce the potential for fraud, waste, and abuse of the grant award
funds.

      Our audit concluded that PFP did not have an adequate financial
system in place. Specifically, PFP provided multiple sets of inconsistent
accounting information covering the expenses claimed for the Department of
Justice grant programs. As a result, we determined that the accounting
records PFP provided during our audit were unreliable.




                                     -6­
       Over the course of our audit, PFP provided three sets of accounting
records covering the activities associated with the grants we audited.
Accounting records were initially provided in June 2010 at the initiation of
our audit, then again in November 2011, and then a final set was provided
in April 2012. Our initial sample of expenditures for testing was taken from
the June 2010 records, as these expenditures also were reflected in the April
2012 records. However, the overall total of expenditures between each of
the three sets of records was different, which included and excluded
significant transactions. As a result, we were not able to determine which
set of expenditures represented those charged to the grant. A PFP official
stated that the changes PFP made to the accounting records from prior sets
were the result of meetings between OIG and PFP personnel, after which the
records were adjusted.

       PFP’s grant expenditures consisted of payments for personnel, fringe
benefits, consultants, rent, telephone bills, background checks, food for
training/conferences, travel, and other various costs.

Personnel and Fringe Benefits

       According to the accounting records, PFP spent $353,805 on employee
salaries and $66,924 on fringe benefits. We selected four nonconsecutive
pay periods for testing to determine if salaries and fringe benefit charges
were supported and allowable.

       According to PFP officials, 6 of 11 of the grant-funded employees were
charged to the 2 OJP grants and the HHS grant. According to the OJP
Financial Guide, in cases where two or more grants constitute one identified
activity or program, salary charges to one grant may be allowable after
written permission is obtained from the awarding agency. However, we
requested and were not provided or made aware of any permission
requested or received from OJP; therefore, we question all of the personnel
charges associated with the grants as unallowable.

      In addition, PFP allocated 25 percent of the salaries for four employees
to the OJP grants (the Controller, Director of Finance and Administration,
Director of Development, and Director of Special Programs). According to
the OJP Financial Guide, where salaries apply to the execution of two or
more cost activities, each activity must be made based on time and/or effort
reports. In our review of PFP timesheets, we found that the timesheets did
not show 25 percent of the employees’ time charged to the mentoring
program. We were not provided any other documentation of time and effort
to substantiate that 25 percent of these salaries was an appropriate
allocation to charge to the grant. In addition, PFP’s Accounting, Policies, and



                                     -7­
Procedures Manual requires personnel charges to awards for salaries and
wages to be based on documented payrolls approved by a responsible PFP
official, however we found no such approval mechanism in place. The
distribution of salaries and wages to awards must be supported by personnel
activity reports. As a result, we question the salary charges for the four
employees as unsupported and unallowable costs.

      PFP’s approved grant budgets listed positions that were to work
specifically on each grant. However, in our review of expenditures charged
to the grants, we found employees charged to the grants who were not in
the OJP approved budget. For the 2007 grant, three of the nine positions
charged to the grant, were not in the budget. For the 2008 grant, 5 of the
11 positions charged to the grant were not approved in the budget. As a
result, we question the costs associated with salaries paid by the grant for
these unapproved positions as unallowable.

      Furthermore, we were unable to calculate the amount of the
unallowable salaries because documentation for the grant-funded personnel
charges provided by PFP did not match accounting records provided. As a
result, we were unable to determine the exact amount of each employee’s
salary that was actually charged to the grants.

       Finally, we reviewed the timesheets for the employees charged to the
grant for the four selected time periods. For the four pay periods selected to
review, PFP provided 25 timesheets for the employees charged to the grant
and did not provide one timesheet for a staff member selected. In reviewing
the timesheets, we found 11 were signed off by the employee, and 7 were
signed off by a supervisor. According to a PFP employee, the employees do
not create their own timesheets; they are instead created by administrative
personnel. In addition, PFP does not require employees to sign the
timesheets in a timely manner. Instead, PFP bundles a group of timesheets,
for several months, and then according to a PFP employee, the employee
signs off on the entire lot of timesheets. The OJP Financial Guide requires
that time and attendance records support payroll records and associated
fringe benefit charges. Additionally, PFP’s Accounting, Policies, and
Procedures Manual requires all hours to be entered by the employee and
supervisors to examine and verify entries. We believe PFP’s system of
bundling several months of timesheets does not provide an adequate level of
control over the information contained within its time system because the
timesheets are not created by the employee or certified as a basis for
payment.

     As a result of the deficiencies we identified in the manner by which PFP
documented and allocated personnel salaries to the grants, we determined



                                    -8­
that all personnel salaries charged to the grant were neither adequately
supported nor properly authorized. In addition, the internal control
shortcomings did not ensure a process was in place that would provide
evidence of supervisory review and the approval of personnel time charges.

      In addition, the calculation of fringe benefit charges was based directly
on personnel expenditures as either a percentage or fixed amount for each
employee based on time spent working on the grants. Because of the
previously discussed deficiencies in the preparation of employee time cards,
we determined fringe benefits were not properly authorized. As a result, we
question, as unallowable, all of fringe benefit expenditures charged to the
grants.

Non-Personnel Direct Costs

      PFP was awarded two OJP grants and one HHS grant to provide a
mentoring program to children with at least one incarcerated parent.
According to PFP officials, PFP spent money on mentor/mentee activities and
then allocated 50 percent of the expenses to the HHS grant, 25 percent to
the 2007 OJP grant, and 25 percent to the 2008 OJP grant for
reimbursement purposes. We discovered while reviewing supporting
documents for expenses charged to the two OJP grants that there was no
consistency to the method of charging expenses to the three separate
grants. Based on our review of the available documentation, it appears that
PFP essentially combined the three grants and treated the funds as a single
source to draw funding. According to the OJP Financial guide, “the
accounting systems of all recipients must ensure that agency funds are not
commingled with funds from other Federal agencies. Each award must be
accounted for separately. Recipients are prohibited from commingling funds
on either a program-by-program or project-by-project basis.”

      For the two OJP grants, PFP spent a total of $100,911 in direct costs,
excluding personnel and benefits. We tested $55,526 in grant expenditures
reported in PFP’s accounting system for allowability and supportability. 5 To
determine if the expenditures were allowable, we compared the
expenditures to the grant budget and permissible uses of funds outlined in
the OJP Financial Guide. To determine if the expenditures were supported,
we reviewed accounting system data and supporting documents such as
invoices, receipts, and timesheets.




       5
          We selected our sample from the accounting records provided in June 2010 and
verified that the transactions selected for testing also appeared in the April 2012 records.



                                            -9­
      In reviewing the supporting documents provided by PFP, we found
unallowable costs totaling $34,834, with consultant payments representing
$22,201 of the unallowable expenditures. The budget line for consultants
allowed for payments for mentor training and background checks, but
instead PFP charged the grants for two consultants - a program
management consultant and a clerical consultant. These two consultants
charged to the grant were not included in the grant budget approved by OJP.
As a result, we are questioning the charges of the two consultants as
unallowable. In addition, PFP purchased $8,935 in gift cards to give to
mentees for signing up for the program. PFP provided a flyer in the
supporting documents which stated, “Children with one or more incarcerated
parents who sign up for a mentor by Friday, October 24, 2008, will receive a
$150 gift card.” Incentives for participating in the grant-funded program
were not approved in the budget. 6

      According to the OJP Financial Guide, “the food and/or beverages
provided are not related directly to amusement and/or social events and
surrounding events must provide several hours of substantive information.”
We determined that on several occasions PFP provided food paid for with
grant funds for social events. Therefore, since we found no evidence that
substantive information was provided, we are questioning a total of $1,413
for food at an awards banquet, food at a baseball game, and food provided
during a recruiting event. In addition, we identified a number of other
unallowable expenses totaling $2,285 which brings the total unallowable
expenditures to $34,834. These expenses included training conducted prior
to the grant award, advertising expenses, and awards for a banquet.

      In addition, we found unsupported costs totaling $9,631. Among the
unsupported costs were background checks and stipends for mentoring
services and recruiting. In response to our request for support, PFP only
provided us with unverifiable summary invoices for these costs. As a result,
we could not determine whether the costs were reasonable or adequate.

       In our judgment, when expenditures are unsupported and not properly
authorized, it greatly increases the risk of inappropriate and erroneous grant
charges and also potentially undermines the ability of the grantee to
satisfactorily accomplish its stated objectives.




      6
          Using the limited documentation provided by PFP to support the gift card
expenses, we determined the total spent on gift cards amounted to $8,935. That amount
included 110 cards, 60 cards at $100.00 and 50 cards at $50.00, and a $3.95 per card fee
(the fee for the 110 cards totaled $434.50 which we rounded to $435 for our report).



                                         - 10 ­
Indirect Costs

      PFP charged $232,754 in indirect costs to the grants. However, PFP
was not approved by OJP to charge any indirect costs to the DOJ grants.
Expenses included rent, telephone bills, depreciation, insurance, utilities,
equipment, maintenance, and cleaning. According to the OJP Financial
Guide, "if a recipient does not have an approved Federal indirect cost rate,
funds budgeted for indirect costs will not be recoverable until a rate is
approved." We found no evidence that PFP had an approved rate, nor have
we found any evidence that PFP requested approval of an indirect cost rate.

      PFP provided us with numerous methodologies and different
explanations for allocating the indirect costs to the grants, but when we
attempted to link the allocation method with the amounts charged to the
grants, we determined that they did not match. Based on the indirect
expenses we reviewed, we concluded that 17.4 percent of the overhead cost
was allocated to the two OJP grants. An additional 17.4 percent of the cost
was allocated to the HHS grant. Therefore, approximately 35 percent of
PFP’s overhead costs were paid for by a federally funded mentor program
although no indirect cost rate was approved.

$375,000 in returned funds

      In reviewing the initial accounting records provided in June 2010, we
found a $375,000 journal entry for which PFP could not provide adequate
support. PFP officials stated that they believed the 2007 grant, awarded for
a total of $666,667, was only one of three grants that PFP would be
receiving each year from the DOJ, totaling $2 million. In reality, the
$666,667 was to be spent over a 3-year period according to the OJP grant
award documentation. According to PFP, it began spending and obligating
the $666,667 as necessary to be spent in 1 year. OJP noticed the large
amount of funds being drawn down in the first year of the 3-year grant and
contacted PFP. Once PFP’s mistake was clarified and it realized the
$666,667 grant was actually for a 3-year period, PFP returned $375,000 of
the funds drawn down to OJP on February 6, 2009. However, our review of
the updated April 2012 accounting records showed the $375,000 journal
entry had been removed from the grant accounting records.

Drawdowns

     For the 2007 grant, PFP requested grant funds through 19 separate
drawdowns or funding requests totaling $666,267 and OJP deobligated
$400. For the 2008 grant, PFP requested grant funds through four separate
drawdowns or funding requests totaling $283,625 and OJP deobligated



                                   - 11 ­
$29,397 in June 2010. PFP was unable to provide a methodology for
calculating their drawdown amounts for either grant, totaling $949,892. We
compared the drawdown amounts to the accounting records (PFP expenses)
and we were unable to tie the drawdown amounts to the accounting records.

       When asked for detailed support for each drawdown, PFP provided a
spreadsheet for the 2007 grant for the period of March 2008 through
December 2008. The spreadsheet contained estimated expenses, a
restricted scholarship fund for $375,000, and estimated incurred and
projected program activity to support the drawdowns. According to the OJP
financial guide, the grantee should request funds based upon immediate
disbursement or reimbursement requirements, which this spreadsheet did
not represent.

      Lastly, PFP drew down a total of $949,892 for the two grants, and the
detailed April 2012 accounting records for all expenditures charged to the
2007 and 2008 grants totaled $754,395. As a result, PFP drew down
$195,497 more than the expenses recorded in their accounting records.
Therefore, we question $195,497 as unsupported.

Reporting

Federal Financial Reports

      The financial aspects of OJP grants are monitored through Federal
Financial Reports (FFRs). 7 According to the OJP Financial Guide, FFRs should
be submitted within 30 days of the end of the most recent quarterly
reporting period. The final report must be submitted no later than 90 days
following the end of the grant period. Funds or future awards may be
withheld if reports are not submitted or are excessively late.

      PFP was required to and submitted a total of 12 FFRs for the 2007
grant. We reviewed the submitted reports for timeliness and found that that
9 of the 12 FFRs were submitted from 1 to 255 days late. PFP was required
to and submitted a total of six FFRs for the 2008 grant. We found that all of
the FFRs were submitted late, from 4 to 223 days. Because PFP submitted
the majority of the FFRs late, OJP’s ability to evaluate the financial aspects
of the ongoing grant program on a timely basis was potentially
compromised.

       7
         Effective for the quarter beginning October 1, 2009, grant recipients must report
expenditures online using the Federal Financial Report (FFR-4Q25). Prior to October 1,
2009, the financial reports were called Financial Status Reports (FSRs) and had to be
submitted within 45 days of the end of the most recent quarterly reporting period. For this
report we will be referring to both the FSRs and FFRs as FFRs.



                                          - 12 ­
      According to the OJP Financial Guide, the FFRs are to contain the
actual expenditures for the reporting period and cumulative for the award.
PFP was unable to provide a methodology for calculating the amounts
contained within the FFRs. Additionally, we determined that the FFRs did
not match the accounting records (PFP expenses) and we were unable to
determine how PFP calculated the amounts recorded on the FFRs.

Progress Reports

       Progress reports are submitted in order to provide OJP with
information on the performance and accomplishments of a grant. PFP
submitted six of the required seven progress reports for the 2007 grant and
the three required progress reports for the 2008 grant to OJP. As of April
2013, PFP had not submitted the final progress report for the 2007 grant
that was due in December 2010. We judgmentally selected two progress
reports from each grant in order to compare the data in the reports to
supporting documentation provided by the grantee. Generally, the grantee
was able to provide adequate documentation to support that events and
training sessions that were discussed in the progress reports took place.
The documentation was typically in the form of sign-in sheets and agendas.
However, the grantee did not provide adequate documentation to support
their claims relative to the number of mentors and mentees that were
involved in the program during the reporting periods tested. In addition, the
number of mentors and mentees claimed by PFP did not reach the intended
goals of the grants. This is further discussed later in the performance
section of the report.

      Nine progress reports were submitted, in total for both grants,
between October 2007 and July 2010. We found that three of the nine
progress reports were from 62 to 313 days late. A PFP official stated the
progress reports were late due to the change in personnel. In our judgment,
the unsupported number of mentors and mentees involved in the program
and lateness of PFP progress reports potentially impaired the OJP’s ability to
monitor grant activity and significantly increases the risk that grant funds
might be used for unallowable purposes.

Budget Management and Control

      OJP approved a detailed budget for each of the two grants. The OJP
Financial Guide requires that grant recipients spend grant funding according
to defined budget categories, or request approval prior to reprogramming




                                    - 13 ­
funds if actual spending exceeds certain limits. 8 The following table presents
the approved budget for the grants.

                     OJP Approved Grant Budgets to PFP

              OJP Grant
          Budget Category       2007-JU-FX-0007         2008-DD-BX-0377
          Personnel                     $236,250                $198,500
          Fringe Benefits                 65,323                  54,885
          Travel                          11,068                  13,980
          Equipment                            0                       0
          Supplies                        33,375                   9,200
          Contractual                     39,155                  13,000
          Other                          281,496                  23,457
          Total                         $666,667                $313,022
             Source: OJP Grant Award documents

      We attempted to compare budgeted amounts from the approved
financial clearance memoranda to actual expenditures from the grant
transactions. However, PFP could not provide a list of the actual
expenditures per grant budget category because indirect costs were included
in the direct budget categories; therefore, the actuals provided by PFP were
incorrect. As a result, we were unable to evaluate the budget versus actual
spent. When grantees do not track expenditures by approved budget
categories or monitor the budgeted versus actual expenditures, effective
grant management is potentially undermined and the ability to adequately
safeguard grant funds is compromised.

Program Performance and Accomplishments

      Overall, the objective of the grants was to match mentors with
children whose parents are incarcerated in a state or federal corrections
system. The OJP grants had three major objectives: (1) identify and enroll
children whose parents are incarcerated in the federal or a state correctional
system; (2) link those children with mentors who have successfully
completed applications, screening and reference checks, and initial training;
and (3) incorporate the elements of the Positive Youth Development
curriculum into the monitoring program, including skill acquisition for the



      8
          Movement of budget dollars between approved budget categories without a Grant
Adjustment Notice is allowable up to 10 percent of the total award amount (10 percent
rule), provided there is no change in project scope.



                                        - 14 ­
mentors through ongoing monthly training and support. 9 For the 2007
grant, the grantee planned to enroll and match 1,000 mentors to mentees
over the life of the 3-year grant. For the 2008 grant, the grantee planned to
enroll and match an additional 100 mentors to mentees over the 1-year
grant.

   The 2008-DD-BX-0377 grant goals included:

   •	 Provide intellectual, social, physical, and emotional support to children
      of incarcerated parents, through one-on-one mentoring, to help them
      be ready and able to be productive members of society.

   •	 Reduce the probability of children of incarcerated parents from
      dropping out of school, becoming involved in crime, and becoming
      incarcerated, by modeling another way of life that can be reached by
      making better choices.

   •	 Provide support to local community and religious organizations by
      helping to improve the capacity of the local justice system, in the long-
      term reducing the overall number of incarcerated individuals.

      To assess PFP’s achievements in meeting the goals, we interviewed
grant officials and requested any data that they compiled, maintained, and
used in order to measure and evaluate performance and accomplishments
related to each objective.

      We determined that the grantee did not achieve its goal of enrolling
1,100 mentors for 1,100 mentees over the life of the grants. The grantee
provided limited documentation to support the number of mentors and
mentees that participated in the program. As described in the Reporting
section of this report, the grantee provided several lists of names to support
the mentors and mentees involved throughout the life the program,
however, these lists did not include specific information regarding the start
and end dates of participant involvement.

      Because the grantee’s records were inadequate, we were unable to
verify the list of matches and identify the total number of people served

       9
         According to the Interagency Working Group on Youth Programs, a collaboration of
12 federal departments and agencies that support youth, positive youth development is an
intentional, pro-social approach that engages youth within their communities, schools,
organizations, peer groups, and families in a manner that is productive and constructive;
recognizes, utilizes, and enhances youths' strengths; and promotes positive outcomes for
young people by providing opportunities, fostering positive relationships, and furnishing the
support needed to build on their leadership strengths.



                                           - 15 ­
throughout this program. We were also unable to determine how long each
person remained involved in the program. We were unable to verify PFP’s
claim that it recruited and served 298 mentees and 218 mentors.
Irrespective, the number of people recruited is significantly less than the
total 1,100 mentors and mentees the grantee had expected to enroll in the
program.

      According to grant officials, the objective of matching 1,100 mentors
and mentees was significantly hampered by the funding. PFP requested
$666,667 per year for 3 years (for a total of $2 million) in order to recruit
1,000 mentor/mentee matches. However, in 2007 OJP awarded PFP a
$666,667 grant for 3 years (or $222,222 per year). PFP officials believed
that based on these financial constraints, 333 mentor/mentee matches
would be “right on track”. However, since PFP did not request approval from
OJP to modify its expected outcomes, we maintain that PFP did not meet its
stated goals and objectives.

        As part of our audit, we interviewed grant officials and reviewed
relevant documentation in order to determine the grantee’s methods for
measuring performance. The grantee provided documentation to
demonstrate how it tracks and measures the performance of each grant.
For example, to demonstrate how it tracks mentor/mentee activities, the
grantee provided a document that contained the names of mentors, their
mentees, activities completed in particular months, and how many hours the
mentor and mentee spent completing those activities. PFP also provided
documentation to demonstrate how it tracks the mentors’ and mentees’
affiliations in order to determine where the program has effectively recruited
participants.

      While PFP demonstrated that it maintains certain information, it was
not able to demonstrate that it compiled the type of data that would
demonstrate measurable outcomes. The grantee did not collect and
maintain information before and after mentee involvement in the program to
determine whether any impact had taken place. For example, the grantee
did not maintain information related to the mentees before and after the
program or post participation arrest data for mentees which would indicate
that PFP had successfully broken the cycle of incarceration.

       Based on our review of the documentation and interviews with grant
officials, we determined that the grantee's measures of performance were
not reasonable indicators for evaluating actual performance. Because of the
limited usefulness of the performance measures and lack of data, we were
not able to determine whether grant funding was effectively used.
Additionally, because the number of mentor/mentee matches involved in the



                                    - 16 ­
program was far below the goal of the grant program, we believe the
program was not successful in accomplishing its intended goals and
objectives. In our judgment, program performance must be assessed
throughout the grant period to help PFP determine if funds are helping to
meet program goals and objectives and to make adjustments if necessary.

Compliance with Other Grant Requirements

      In addition to the general grant requirements, we tested for
compliance with terms and conditions specified in the grant award
documents. The grant awards contained 22 special conditions. We found
that PFP complied with all of the special conditions except for the findings
previously reported.

Conclusions

       PFP did not fully comply with the grant requirements we tested. We
found material weaknesses in PFP’s internal controls, expenditures,
drawdowns, FFRs, progress reports, budget, and program performance
resulting in the questioned costs totaling $893,445. These weaknesses
resulted in PFP providing multiple sets of accounting records during the
audit, even though the grants had ended.

      We found that PFP charged $420,729 to the grant for personnel and
fringe benefit costs that were unallowable. We found that PFP charged
direct costs of $34,834 to the grant for unallowable expenditures, and
$9,631 to the grant that could not be adequately supported. PFP also
charged indirect costs of $232,754 to the grant for unallowable
expenditures. PFP drew down $195,497 in grant funds in excess of the
accounting records.

      We found PFP could not support the amounts drawn down or reported
on the Federal Financial Reports. PFP could also not provide a correct
account of grant charges per grant budget category to ensure proper budget
management.

      Additionally, we found that PFP did not have procedures in place to
ensure the timely submission of Federal Financial Reports and progress
reports, nor did it ensure that progress reports provided supported
information. We also determined that PFP did not meet the goals and
objectives of the grants.




                                    - 17 ­
Recommendations

   We recommend that OJP:

   1. Remedy $353,805 in unallowable employee salaries.

   2. Remedy $66,924 in unallowable fringe benefits.

   3. Remedy $34,834 in unallowable expenditures outside the scope of
      the approved budget or used for purposes not permitted under the
      awards.

   4. Remedy $9,631 in unsupported expenditures including background
      checks and recruiting mentors.

   5. Remedy $232,754 in unallowable indirect costs.

   6. Remedy $195,497 in drawn down expenditures not in the

      accounting records.


   7. Ensure PFP enhances its financial management system to
      adequately safeguard, document and properly account for grant
      funds.

   8. Ensure that PFP requests grant funds based on immediate
      disbursement/reimbursement of actual grant expenditures.

   9. Ensure that PFP implements and adheres to procedures that will
      result in the timely submission of FFRs.

   10.Ensure that PFP implements procedures to ensure that expenses
      reported on future FFRs are based on actual expenditures for the
      reporting period.

   11.Ensure that PFP implements and adheres to procedures that will
      result in the timely submission of supported progress reports.

   12.Ensure that PFP implements and adheres to procedures to track
      expenditures by budget categories and to monitor budget versus
      actual spending on a consistent and ongoing basis.

   13.Ensure that PFP develops grant performance measures and monitors
      the performance of the grant to ensure that PFP reaches the
      program goals and objectives.



                                 - 18 ­
                                                               APPENDIX I


           OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of our audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants. We also assessed grantee program performance in
meeting grants objectives and overall accomplishments. The objective of
our audit was to review activities in the following areas: (1) internal control
environment, (2) grant expenditures, (3) drawdowns, (4) Federal Financial
and progress reports, (5) budget management and control, (6) program
performance and accomplishments, and (7) compliance with other grant
requirements. We determined that monitoring of contractors and
subrecipients, program income, and matching costs were not applicable to
these grants.

      We conducted this performance audit in accordance with Generally
Accepted Government Auditing Standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provided a
reasonable basis for our findings and conclusions based on our audit
objectives.

      In conducting our audit, we used sample testing while testing grant
expenditures. In this effort, we employed a judgmental sampling design to
obtain broad exposure to numerous facets of the grants reviewed, such as
high dollar amounts or expenditure category based on the approved grant
budget. This non-statistical sample design does not allow for the projection
of the test results to the universes from which the samples were selected.

      We audited the Office of Justice Programs grant numbers
2007-JU-FX-0007 and 2008-DD-BX-0377. The grantee had a total of
$949,892 in requests for grant funding through September 2010. Our audit
concentrated on, but was not limited to, the award of the 2007 grant in
October 2007, through the end of field work in September 2010. After the
end of fieldwork we continued to have contact with PFP and received
additional documents and accounting records relevant to the grants. During
this audit, we identified certain issues requiring further investigation. We
referred those matters to the OIG’s Investigations Division, and put our
audit on hold pending such investigation. Subsequently, we were able to
complete our audit and issue this report.

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria


                                    - 19 ­
we audit against are contained in the Office of Justice Programs Financial
Guide and grant award documents.

       In addition, we reviewed the timeliness and accuracy of Federal
Financial Reports and progress reports, evaluated actual program
performance and accomplishments to grant goals and objectives, and
considered internal control issues. However, we did not test the reliability of
the financial management system as a whole.




                                    - 20 ­
                                                                       APPENDIX II


            SCHEDULE OF DOLLAR-RELATED FINDINGS

   QUESTIONED COSTS                                              Amount           Page


   Unallowable Costs:
      Unallowable Salaries and Fringe Benefits                   $ 420,729          7
      Unallowable Expenditures                                         34,834       10
      Unallowable Indirect Costs                                      232,754       11
   Total Unallowable Costs                                       $688,317


   Unsupported Costs:
      Unsupported Expenditures                                    $     9,631       10
      Unsupported Drawdowns                                           195,497       12
   Total Unsupported Costs                                       $205,128


   Total Questioned Costs 10                                     $893,445




      10
           Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.



                                          - 21 ­
                                                                                                        APPENDIX III


                   PEOPLE FOR PEOPLE, INC.

             RESPONSE TO THE DRAFT AUDIT REPORT





                                           People For People, Inc.
  Thomas O . Puerzer
  Regional Audit Manager
  U.S. Department of Justice
  Office of the Inspector General
  Philadelphia Regional Audit Office
  701 Market Street, Suite 201
  Philadelphia, PA 19106

  Re: Response to Draft Audit

        Preface

        We are honored that for over two decades People for People has delivered social services to over
        80,000 individuals; provided earl y childhood education to over 1,100 children and quality
        education to over 5,000 k-8 students through People For People Charter School; assisted about
        700 after school participants in remedial math and reading and transitioned 200 adults into
        college through the accredited People For People Institute. Since its inception, PFP has invested
        over $200 million in the Philadelphia corrununity.

        As our responses will indicate, we have examined eveIY progranunatic and financial procedure
        to ensure that we are in line with all federal policies and procedures. In addition, People For
        People has secured the selVices of Cynthia Romano of Phoenix Corporate SelVices, a fiscal
        intennediary and systems management firm, to consult with our finance and operations team to
        strengthen us in all areas of grant and financial management.

        Although we have experienced some challenges with federal grant administr ati o~ we have
        recently llilcovered some internal challenges, llllknown to management at the time, which had a
        maj or impact on the administration of the two grants in question. We have taken the necessary
        steps to correct the actions which stemmed from a range of factors and placed safeguards to
        ensure that they never happen again. Key staff involved during this grant period, have been
        transitioned out of the organization.

        This docmnent contains PFP' s response to THE DOl draft audit report and a specific response to
        the 13 reconunendations and $893,445 .00 in questioned costs. PFP is providing a detailed
        disposition and additional context for our position on the audit recommendations. Included in
        this response is PFP ' s accOlmt of both completed and plarmed measures taken to remedy
        program and operational weaknesses.




                                                HERBERT H. LUSK, II, PRESIDENT
BOO NORll-l BROAD STREET, Sl.lTE. 700, PHLADB...PHIA, PEt>.t>JSYLVANIA 19130.TEL 215.2J5.234a.FAX 215.235.8345*WWW.PEOPLEFORPEOPLE.ORG




                                                           - 22 ­
PFJ' has previow;ly acknowledged variow; misin1t:'lJrdatio ns and subsequent mi s~ tep~ from
inceptiQll of the grant award and through the duratiQll of the grant. The miscues referenced were
a result in errors of interpretation and, in part, weaknesses in internal eontroh which have since
been strengthened.

While the quantit y and complexity of infonnation is overwhelming, PFP remains committed to
good faith and tr,lllsparenc y in Ihe delivery of our programs. It is our hope Ihat "111 DOJ Audit
                                                                                        e
Office directl y experienced this mindset. PFP wo uld be remiss not to acknowledge your
department 's ongoing professionalism and patience for the duration of this audit.

Overview of Progr'dm Evenll[l and C ln:umstances

Unfortunately, PFP, Inc disputes the substance of the draft audit report regarding disallowances.
PFP, Inc has flUictioned and perfonned in good faith and when errors were made, PFP, Inc
immediately redifi ed them. In fonn ulating this res ponse PFP has found that man y factors
impacted the program:

I. The grant infomlation is vast, voluminow; and somewhat contradictory;
2. The time span involved (in operating tne grant) is multi-year with a static level of initial
   funding only;
3. The level of personnel/management transition in this program
4. The level of monitor transition and subsequent commun ication gap

Vnique <-'in:umslances and t:,·enls

1. Revised Budget.

It is DOJ's contention that the re vised budget did not receive "official" appro val. PFP, Inc
disputes this.

·Ine original budget was for $2 million. ·111e Program award was for $666,667. ·Ibe ori ginal
budget was not viable. We submitted a revision. All our quanerl y financial reports (although not
timely)refl ectcd the revised budget and the program was opcrdted and managed against this
revised budget.

At a minimum, the budget was not viable for the following reasons:

1. TIle Program Revenue line was $666,667 per year.
2_ Program expenses including personnel were allocated against thi s S666,667 proposed
   revenue.
3. Program Outcomes were developed against this level of stafr capacity and this level of
   program revcnue_

Disallowing the revised budget is central in this draft audit report.

2. Program Award Ambiguities




                                              - 23 ­
Clearly, the initial aWMd had ~o me oontradictory comp Ont:n~. The grant aWMd letter was
ambiguous and contained a lack of clarity about PFP's proposal for operating a $2 million
program was approved at only $666,667 (with dc1i verdbles ~cal ed at a $2 million level), and not
having our level of program outcome~ appropriately adju~ted. I'FI', I nc'~ proposal was approved
without conditiollS. This includes but is not limited to our Program Narrative, our proposed
program'~ obj ectives and timelines and our program'~ oulcome~ . PFP's Program wa~ ali gned to
the $2 million program budget included in the proposal.

However, the program award letter wa~ for $666,667 (the one year amount in O proposal) for 3
                                                                                llr
yean;. TIl i ~ is why pFP drew down this amount (in elTor, and upon internal revie·....,) immediately
reversed the excess draw down.

A $666,667 award (01· 3 yeal"S at our proposed program       ~al e   was clearly all illadyertellt
error 011 the part of the grantor agency.

The program was logically "scaled" back (by pFp) to operate on an annual program budget of
$222, 223. The fo llowing events OCCUlTed:

I. _ _ , the Fl'O at the incept ion of the program was infonned and aware.
2. ~dget was ofIe red and subsequently reflected in the FSR's.
3. FSR 269's - aligned with the rev ised budget - were submitted quarte rl y for the duration of the
   program. (PFp acknowledges that FSR 269's were, in several instances, submitted late).
4. The Program was operated - from its early stages · against the scaled-down budget ruJ d the
   scaled·down revised program outcome!;.
5. Early in the program, ~at io n methodology/approach (Census), was explained
   in conversations with _ _ .

Unique CirclUnstrulces •

A series of unfortunate and confus ing, circumstances (in conj unction with some Program
Monitoring inefficiencies) contributed to program weaknesses.

I. _ _ departure did not result in an effective trrulSition to a replacement Fl'O
or~ would be able to provide program guidance and clarity to PFP in ruJ
ongoing manner.

2. We did not receive an y notification, verbally or in writing that PFP's revised budget was
"not approved".

3. We recei ved no infornmtion, verbally or in writing, that there were an y concerns wit h
submitted FSR 269's. PFP acknowledges receiving late notices. However, once
submitted - absent any feedback - PFP presumed all was well.

4. prp acknowledges that personneVmanagement change at prp contributed to inefficient
program transition and related program inefficiencies.




                                             - 24 ­
!i. ·Inis program began in the midst ofa major Organizational tmnsition at PFP whe re 3
    different people occupied the compruly's key finrulcial position (the Head of Finance).

6. PFP was the recipient of a grant from a different federa l agency (HHS) for a s imilar
   program with similar goals and outcomes. These programs were co-located on our
   campus . Clearly diffcrcntiating these programs rcmained an ongoing chall engc for
   man y. PFP - made good faith efforts - to sustain the clearest level of differentiation
   possible.

7. The phys ical layout and confih'llration of our campus as well as the large number of
   progrruns operated by PFP can contribute to lines being blurred. We remain candid
   and transparent in our apprOllch 10 spacc allocation. Wc ha ve completed thc following:


     •   Presented financial records in both an Exccl fonnat and in QuickBook's report fonnaL
     •   Pennined access to the QuickBooks accounting system and all inlonnation at our lacility.
     •   Responded with all supporting documentation that exists.
     •   Explained our methodology for allocation of Tent, and shared expenses which including
         security, utilities, business insurance and other common building re lated expenses.
     •   PFP ha~ provided a detailcd and comprehensive account of our basis thcory and
         methodology.
     •   Provided historical perspective that outlined how the initial method was based on
         program participants (or cemms); and was changed to SquaTC footagc in order to comply
         with al l contracts and grants in our menu of programs. ·Illis shift in allocation
         measurement occurred mid-grrult.
     •   Used square footage to provide consistency in allocation across all programs although
         some of the mentor/mentce acti vity occurred o ut ~i dc ofth c phy~ical campus of Peo ple for
     •   People, Inc. (ruld allocatioll by census would be more appropriate)
     •   Made all staffavai bble for interviews, llild re views of the manuals llild training materials
         developed to help manage and operate the mentoring progr.!lll.
     •   Provided our mentor and mentee records in their entiret y. Additionally, we have
         providcd thc supporting documentatio n that re late to participants aetivitics.

Gem-ral Response to Draft Audit Rep<u1

PFP vehementl y disputes DOl's contention regardin g the modification of the budget and matters
related to this grant award and the grant audit process.




         -
I.       PFP attempted to modify the budget and sought 10 collaborate with IX>J regardi ng this.
         Please see Anachment I and the email conversation between PFP and the DOJ FPO,


         ·Ine email thread shows that PFP explicitly asked about the modification to the budget
         and oors short and ten;e res ponse was, "No"




                                               - 25 ­
   DOJ's foc u~ was on the drdw down reversal which w~ initiated by PFP on 1/29 and
   received by OOJ on 2/6. (Please see Attachment 2). Clearly the FPO had no
   knowledge of this although PFP receivoo the drawdown reversal instmctions from DOl.

2. Although PFP has been and remains candid about our program and operational areas that
   require improvement, 001 has not through this audit process aeknowledgoo or admitted
   the s ignificant DOl program monitoring weaknes~e~ that directly contributed 1 the item~
                                                                                 0
   contained in the draft audit report. These DOl Program weaknesses include, but are not
   limited to:

   •   001 clearly erred in the grant awarding PFP a $667,000 grallt for a $2 million
       program proposal. Moreover, 001 remains steadfast in holding PPI' aceountahle to
       the origi nal proposal's budget and benchmarks even though the award was for a
       substantially lesser amount.
   •   Not providing PFI' a copy of the 001 Financial Guideline Documt:nt at the time the
       grant was awarded.
   •   No t providing PFP an y technical support or assistance on PFP's first DOl grant.
   •   Altho ugh noting the error, and subsequent to the drawdown reversa l, providing no
       teciUlical or program guidance to PFP to scale and calibrate the program down to
       match the reduced budget.
   •   Upon the initial FPO's retirement, the lapse in assigning an FPO and the significant
       break in program management continuity from an already hands+     olfDOl Program
       Monitoring approach.

3. The DOl Audit process has been long and intensive. However, it has been lUiforgiving
   and possibly, unbalanced and lUifair for the following reasons:

   •   001 has consistently refused to grant a possible waiver alld credit Pl' P for any
       rational e provided explaining PFP's decision making proeC!;s. For instance, DOl ha~
       ignored an y and all ve rbal interactions between PFP and DOl during the program
       period. The DOl Audit Review Department has taken the position that "If PFP has
       no written evidence, the interaction did not occur" ·Incre arc many undocumcnted
       points during this program that PFP was cOlUiseled and advised by D01.

   •   Ahsent effective counsel and guidance, oo1"s failure to credit PI'P for wriuen
       evidence and support when provided. Attachment I, for example, provides support
       that PFP made good faith cfforts to collaborate with DOl Oil mOdifying the budget
       from a $2 mill ion program to a $667, 000 program.

   •   ·Int: consistent failurt: to recognize or acknowledge that when I'FI' made rea~onable
       decisions, with or without written approval· like scaling, calibrating and aligning the
       program budget and benciulla rks to the approved gra nt award (as opposed to the
       original proposal). Rather, 001 ha~ opted to penalize in unreasonable ways.




                                        - 26 ­
Response to Recommendations

1. Remedy $353,&05 in unallowable emplo vee .<;alarie.<; AND
2, Remedy $('(',924 in unallowable fringe        benefit~:




DOl is questioning S420,729 of salaries ruld fringe benefits. DOl understands that these grant
fund~   were disbun;ed for the above   pU'lJ"O~e .




Page 7 oflhe Draft Report    ~tate~ DOJ'~    rationale, in part. 'nle report   ~tate8 ,   "According to the
OlP Financial Guide, in cases where two or more grants constitute one identified activity or
program, ~alary charges to one gra nt may be allowable after written pcmlission is obtained from
the awarding agenc y."


PFP concedes that written pennission was not granted. In the event that DOJ"s rationale is
accurate - and I'FP   ~ubmits   it is not, is it not reasonabl e 10 infer that PFP acted properly and
reasonably? Is it not within the subjective discretion for DOl, even during this audi t process, to
granl l'FP a retroactive approval.


Notwithstanding Ihe above rdtionale, I'FI' respectfull y and strongly disagrees with this DOl
position for several reasons.


    1. PFP has already previously indicated that the DOl Financial Guide was not received and
         advised that it is a critical "guiding document".
   2. PFP has also submitted that PFP may have "over-relied" OIl the guidrulce and counsel of
         the 001 Federal Program Officer (FPO).
   3. PFP received an abridged copy of the DOl Financial Guide towards the latter stages of
         the 001 Audit Review process.
   4. The sentence quoted in this DOl Draft Audit is inaccurate, unreliable and incomplete.
         Omitted in the DOl Draft Audit Report, the section, Two or More Federal Grant
         Programs has the following statement as the leading sentence (which precedes that
         sentence quoted in this 001 draft aud it report).




                                                     - 27 ­
       "Where salaries apply to execution of two or more grant programs, cost activities, project
       periods, and/or overlappin g periods, proration o f COSIJI to each a<:tivit y must be made
       b~ ed   on time and/or effort reports."


       It is I'FI" s contention that I'FI" s DOJ-HHS scenario clearly consti tute two or more grant

       programs and PFP implemcnted a " .proration ofeosts to each acti vity must be made
       b~ ed   on time and/or eflort reports" a.s required and stipulated by the DOJ Financial
       G uide.


       PFP contends that DOrs intcl])retation o f the PFP grants is incorrect. PFP furthc r
       contends that this draft audit report applies a narrow and fallacious interpretation of the
       DOJ I--inaneial Guidc b y supporting its position by selectively extracting and isolating a
       sentence, outside the intended conte)..1 of the 001 Finrulcial Guide.


3. Remedy $34,834 outside the scope of the approved budget


PFP h as instituted stringent program budget monitoring procedures across the agency. Although
I'FI' acknowledges that this budget monitoring arena required strengt hening, th e $34,834
represents less thrul 4% of the total grrult runounl. PFP is recommending that this disallowrulce
be waived. Afier an internal program assessment, 1'1--1' engaged consultan \Jii to provide much
needed technical assistance


4. Remedy $9, 631 in Imsupported expenditures


001 recognizes that these limds were disbursed on legitimate and pennissible grant activities.
(Back ground checks and mentor recruiting). PFP 's failure to provide the support for th ese
expenditures is inexcusable. However, PFP is certain that the supporting documentation for the
expenditures can be recovered. To that end, PFP is requesting that we either be provided
additional time t o pursue secondary sources to generale the supporting documentation for these
program expenses or once again. consider waiving the disallowance.




                                                 - 28 ­
5. Remedy $232, 7.54 in unallowable indirect          cos~.



PFP 's fordY and learning about indirect costs and federal indin::ct     co~t rate~ i ~   relatively new.
PI'P's experience and exposure prior to this gmnt was mainl y wi th non-fedeml programs where
reimbun;emen15 for ovt:Thead and program administration expenses are pennitted. PFP incurred
real costs as an organization to operate these programs. These costs arc associated with shared
services such as utility costs, physical plant operations, administrative expenses and depreciation
for building and equipment.


Our CUTrent research     indi cate~   that we should have applied for an indirect cost mtc. Howevcr, an
agency is not eligible for an indirect cost rate until you receive a federal grant. In this 00)
award, PFP should have applicd for a provis ional indircct cost ratc. Once again, during the
course of the grant and submitting quarterly financial reports, had this matter been surfaced to
PFP, it could ha ve becn immcdiately rect ified early in the earl y ~tagc of the progmm.


PI'P   i~   recommending that we be penniued to complete our application for an indirect          co~t   rate
and receive a waiver for this indirect cost expenditure.


6.     Remedy $19.5,497 in excess draw down
PI'!' should reimburse the federal gove rnment for any exce~s drdw        down~.     PI'!' unconditionally
accepts that rulY excess draw down is unacceptable. PFP recolllmends a meeting with DO) to
confinn the amount in question and de velop a mutuall y acceptable payment arrangement so P1<-P
Crul return these limds to the federal government.


7. Ensure PFP enhrulCes its financial managemenl system.


People For People concurs with the recommendat ion ruld has made substrultial progress in this
area. PFJ' modified ils current policie~ and      procedure~   by developing an internal financial
management guide as the foundation for ensuring un ifonn fi scal accounting methods. The guide




                                                   - 29 ­
i~   reviewed by everyone in a po~i t ion of financial responsibility from both the   admini~trdtive   and
fiscal divisions of the organi zation, including those whom prepare grant proposals_ PFP
recogniZt:~   that wi th a diven;e set of programs, the guide cannot be a complete manual of
procedures on grant administrdtion and management, but function as a base standard by which
the organization can pivot its practices while providing practical infonnation on what is ex pected
from grantee organizations in tenns of fi scal accountability_ Al1 policies, procedures and
proces~es    an:: developed with the intention of re empha.~ izin g the use of grant fun& in accordance
with the tenns of the gmnt while compl ying with the grant's provisions and conditions _
Furthennore the CEO and senior management conduct regularly scheduled meetings to ensure
thc propcr exccution of prOgram~ to monitor PFP's compliancc for mecting Fedcral           standard~   in
the areas of financial management, internal control, perfonllance reporting and auditing from the
grantor.


8. Ensure that PFP requests grant funds based on immediate disbursementfreimbursement of
actual grant expenditures

People For Peopk concun; with this rccommcndation and is cognizant of the applicable OMS
cost principles recognizing that the tenus and oonditions of the grant award should be observed
to when detemlining the reasonableness, time l ine~s and validation of potential grant
expenditures .. Requests IQr advance payment of Federal limds will be limited to immediate and
approved program expen~e~ wil1 not exceed I'FP's anticipated ex penditures during the al10wable
drawdown period.

9. Ensure that PFP implements and adheres to the procedures that will result in the timely
   sub mission of FFRs.

People For People ooncurs with the recolllmendation. PFP is keenly aware of both financial and
programmatic perfonuance reporting deadlines. During the awarding process, the PFP finance
team and the progrruu manager en gage the Federal Project Officer (FPO) in specific dialogue
regarding the Federal Financial Report (SF 425) deadlines and additional detailed guidelines for
faci litating budget related respons ibilities. PFP continues to function as a willing participating
partner with its contractors and reglliarly meets the perfonuance and financial reporting
deadlines.




                                                - 30 ­
10. Ensure that PFP implements procedures to ensure that expenses reported on future FFR's are
    based on actual expenditures for the reporting period_

People For People does not concur with this recommendation. 11le recommendation infers that
PFP did not   ba~e   the figurc s documcntcd on the FFR's on actual cxpenses_PFP continues to
advance and modify its data reconciling systems 10 reduce opportunilY for variances.

11. Ensure that PFP implements and adheres to procedures that will result in the timely
   submission of supported progress reports.


People For People concurs wilh the recommendation_ As staled in the recommendation #9, PFP
is actively awan:: of bolh financial and programmatic perfonnance reporting deadlines.
'Ibroughout the execution of the grant, PFP's executive management meets regu larl y with
program and finance staff to recei ve, review and respond to progress reports provided by slaff.
PFP continues to fun ction as a willing participating partner with its eontmetors and regularly
meets the peri"OrnlanCe and financial reporting deadlines.

12. Ensure thai PFP implements and adheres to the procedures to trdck expenditures by budget
    categories and to monitor budget versus actual spending on a consistent and ongoing basis.


People For People COIlCUrs with the recommendation. PFP's internal control policies and
procedures provide s afeguards for all grant expenditures and the properties acquired through
those purchases. The expenditures are proposed, reviewed and approved based 0 11 established
standards observed in the financial guide and subsequentl y discussed in detail for eonfinning
clarity with the FPO. The memo, purchase order/invoice and detailed description are key
components of the supporting documentation that senior management review and utilize as a
compliancy rubric during monitoring exercises. Additionall y, PFP is sensitive to the scalabilit y
of its processes; th us the implementation of a division of duties amongst its senior management
team to ensure that no one person handles all aspects of (lilYtransaction from beginning to end.
'Ine process is effective due to the careful planning of the assignme nt of duties amongst team
members to ensure no one has a predominance ofthe respons ibilities. Real time recording of
transactions, ex pense reconciling and transaction checklist are just some of the staples of the
internal control paradigm that exist within PFP.




                                              - 31 ­
13. Ensure that PFP develops grant perfomlance measures ruld monitors the perfonnance of the
    grant to cm;ure that PFP reaches thc progmm goals and objectivct;_


Peo ple For People concurs with the recommcndation_ At the commenccment of a gmnt, the
development and     tran~ition   team   di sc us~   the perfonnance   ~tandards, gu ideline~   and metrics in
ordcr to customize OUT intcmaltrackingsyslCms and pTQCc~ses _ PFP 's internal infonnation
gatherin g and   as~e~sment tool ~   are integr.iled with the contractors' for data congruency.

 All grdnl~ received by I'FI' over the yean; from the city, ~ t ate and federal agenc ie~ have always
been seen as collaborative pannerships. There were some breakdowns in our collaborative
pannership. We take responsibility for some of the collaborative breakdown; howe ver we
believe DO] must also bear ~ome of the responsibility. Lack of experience of I'FI"s finance
director and collaborative challenges with DOl resulted to the detriment of the overall
application of this gnUlt.




                                                      - 32 ­
                                                                            APPENDIX IV


                   OFFICE OF JUSTICE PROGRAMS
               RESPONSE TO THE DRAFT AUDIT REPORT
                                                   U.S. Department of Justice

                                                   Office of Justice Programs

                                                  Office of Audit, Assessment, and Management



                                                  Washington, D.C. 20531




June 3, 2013

MEMORANDUM TO:                Thomas O. Puerzer
                              Regional Audit Manager
                              Philadelphia Regional Audit Office
                              Office of the Inspector General

                               /s/
FROM:                         Maureen A. Henneberg
                              Director

SUBJECT:                      Response to the Draft Audit Report, Audit of the Office of Justice
                              Programs Mentoring Grants Administered by People for People,
                              Inc., Philadelphia, Pennsylvania

This memorandum is in reference to your correspondence, dated May 3, 2013, transmitting the
above-referenced draft audit report for People for People, Inc. (PFP). We consider the subject
report resolved and request written acceptance of this action from your office.

We received a copy of the PFP’s response to the draft audit report, submitted to the Office of the
Inspector General (OIG) on May 24, 2013. In its response, PFP acknowledges that they made
various errors and missteps in administering their Office of Justice Programs (OJP) grants. PFP
asserted that these miscues were due, in part, to a misinterpretation of grant guidelines.
However, the award letters that PFP accepted for grant numbers 2007-JU-FX-0007 and
2008-DD-BX-0377 clearly outlined the special conditions that PFP were required to adhere to,
including compliance with the financial and administrative requirements set forth in the OJP
Financial Guide.

Further, PFP was non-compliant in submitting the final progress report under grant number
2007-JU-FX-0007. The Office of Juvenile Justice and Delinquency Prevention (OJJDP)
contacted PFP on three different occasions, in March 2011, to request the final progress report
for this grant. However, PFP never submitted it, so a non-compliant closeout package for the
grant was processed by OJP in May 2011.


                                             - 33 ­
The draft report contains 13 recommendations and $893,445 in questioned costs. The following
is the Office of Justice Programs’ (OJP) analysis of the draft audit report recommendations. For
ease of review, the recommendations are restated in bold and are followed by our response.

1.	    We recommend that OJP remedy the $353,805 in unallowable employee salaries.

       OJP agrees with the recommendation. We will coordinate with PFP to obtain
       documentation regarding the questioned expenditures, and will request a final
       determination from the Bureau of Justice Assistance (BJA) and OJJDP regarding the
       allowability of the expenditures that were charged to grant numbers 2007-JU-FX-0007
       and 2008-DD-BX-0377. If the expenditures are determined to be unallowable, we will
       request that PFP return the funds to the Department of Justice (DOJ).

2.	    We recommend that OJP remedy the $66,924 in unallowable fringe benefits.

       OJP agrees with the recommendation. We will coordinate with PFP to obtain
       documentation regarding the questioned expenditures, and will request a final
       determination from BJA and OJJDP regarding the allowability of the expenditures that
       were charged to award numbers 2007-JU-FX-0007 and 2008-DD-BX-0377. If the
       expenditures are determined to be unallowable, we will request that PFP return the funds
       to the DOJ.

3.	    We recommend that OJP remedy the $34,834 in unallowable expenditures outside
       the scope of the approved budget or used for purposes not permitted under the
       awards.

       OJP agrees with the recommendation. We will coordinate with PFP to obtain
       documentation regarding the questioned expenditures, and will request a final
       determination from BJA and OJJDP regarding the allowability of the expenditures that
       were charged to award numbers 2007-JU-FX-0007 and 2008-DD-BX-0377. If the
       expenditures are determined to be unallowable, we will request that PFP return the funds
       to the DOJ.
       .
4.	    We recommend that OJP remedy the $9,631 in unsupported expenditures including
       background checks and recruiting mentors.

       OJP agrees with the recommendation. We will coordinate with PFP to obtain
       documentation to support the $9,631 in questioned expenditures, related to background
       checks and recruiting mentors, that were charged to award numbers 2007-JU-FX-0007
       and 2008-DD-BX-0377. If adequate documentation cannot be provided, we will request
       that PFP return the funds to the DOJ.




                                            - 34 ­
5.	    We recommend that OJP remedy the $232,754 in unallowable indirect costs.

       OJP agrees with the recommendation. We will coordinate with PFP to remedy the
       $232,754 in questioned costs, related to unallowable indirect costs charged to
       award numbers 2007-JU-FX-0007 and 2008-DD-BX-0377.

6.	    We recommend that OJP remedy the $195,497 in draw down expenditures that
       were not recorded in the accounting records.

       OJP agrees with the recommendation. We will coordinate with PFP to remedy the
       $195,497 in questioned drawdowns that were not recorded in the accounting records for
       award numbers 2007-JU-FX-0007 and 2008-DD-BX-0377.
.
7.     We recommend that OJP ensures that PFP enhances its financial management
       system to adequately safeguard, document, and properly account for grant funds.

       OJP agrees with the recommendation. We will coordinate with PFP to obtain a copy of
       procedures implemented to ensure that its financial management system is enhanced to
       adequately safeguard, document, and properly account for Federal grant funds.

8.	    We recommend that OJP ensures that PFP requests grant funds based on
       immediate disbursement/reimbursement of actual grant expenditures.

       OJP agrees with the recommendation. We will coordinate with PFP to obtain a copy of
       procedures implemented to ensure that it requests grant funds based on immediate
       disbursement needs, for actual grant expenditures.

9.	    We recommend that OJP ensures that PFP implements and adheres to procedures
       that will result in the timely submission of Federal Financial Reports.

       OJP agrees with the recommendation. We will coordinate with PFP to obtain a copy of
       procedures implemented to ensure that Federal Financial Reports are timely submitted.

10.	   We recommend that OJP ensures that PFP implements procedures to ensure that
       expenses reported on future FFRs are based on actual expenditures for the
       reporting period.

       OJP agrees with the recommendation. We will coordinate with PFP to obtain a copy of
       procedures implemented to ensure that expenses reported on future FFRs are based on
       actual expenditures for the reporting period.




                                           - 35 ­
11.	   We recommend that OJP ensures that PFP implements and adheres to procedures
       that will result in the timely submission of supported progress reports.

       OJP agrees with the recommendation. We will coordinate with PFP to obtain a copy of
       procedures implemented to ensure that progress reports are properly supported and timely
       submitted.

12.	   We recommend that OJP ensures that PFP implements and adheres to procedures
       to track expenditures by budget categories and to monitor budget versus actual
       spending on a consistent and ongoing basis.

       OJP agrees with the recommendation. We will coordinate with PFP to obtain a copy of
       procedures implemented to ensure that expenditures are tracked by budget categories, and
       that budgeted versus actual expenditures are monitored on a consistent and ongoing basis.

13.	   We recommend that OJP ensures that PFP develops grant performance measures
       and monitors the performance of the grant to ensure that PFP reaches the program
       goals and objectives.

       OJP agrees with the recommendation. We will coordinate with PFP to obtain a copy of
       procedures implemented to ensure that grant performance measures are developed; and
       that grants are properly monitored to ensure that the program goals and objectives are
       attained.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:	   Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Denise O’Donnell

       Director

       Bureau of Justice Assistance


       Tracey Trautman

       Deputy Director for Programs

       Bureau of Justice Assistance


       Amanda LoCicero

       Budget Analyst

       Bureau of Justice Assistance





                                            - 36 ­
cc:	   Gale Farquhar
       Grant Program Specialist
       Bureau of Justice Assistance

       Robert L. Listenbee
       Administrator
       Office of Juvenile Justice and Delinquency Prevention

       Marilyn Roberts
       Deputy Administrator
       Office of Juvenile Justice and Delinquency Prevention

       James Antal
       Deputy Associate Administration
       Office of Juvenile Justice and Delinquency Prevention

       Leigh A. Benda

       Chief Financial Officer


       Jerry Conty

       Assistant Chief Financial Officer

       Office of the Chief Financial Officer


       Lucy Mungle
       Manager, Evaluation and Oversight Division
       Office of the Chief Financial Officer

       Richard P. Theis
       Assistant Director, Audit Liaison Group
       Internal Review and Evaluation Office
       Justice Management Division

       OJP Executive Secretariat

       Control Number 20130581





                                                - 37 ­
                                                              APPENDIX V


          OFFICE OF THE INSPECTOR GENERAL

   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO

                  CLOSE THE REPORT


       The OIG provided a draft of this audit report to People for People (PFP)
and the Office of Justice Programs (OJP). PFP’s response is incorporated in
Appendix III of this final report, and OJP’s response is included as Appendix
IV. The following provides the OIG analysis of the responses and summary
of actions necessary to close the report.

Analysis of PFP’s Response

      Prior to addressing each of our findings, PFP provided an extensive
narrative responding to our draft audit report. We have addressed the
narrative provided by PFP below, using the headings PFP utilized in its
response.

Preface

       In response to our audit report, PFP included statistics for its social
service accomplishments. These accomplishments are not related to the
grant-funded program and as a result, we did not audit or assess this
information. Additionally, we noted that PFP made no mention of the results
of the mentoring program which was the subject of this report. PFP stated
that it has secured the services of a fiscal intermediary and systems
management firm to consult with its finance and operations team to
strengthen PFP in all areas of grant and financial management. We have not
spoken to or met with this firm and cannot comment on these actions.

      PFP also acknowledged various misinterpretations and missteps that
occurred from the inception of the grant awards and throughout the duration
of the grants we audited. PFP stated internal controls have been
strengthened; however, it provided no documentation demonstrating the
strengthened internal controls. As a result, we have not had the opportunity
to assess the updated internal controls.

      Throughout PFP’s response it references communications and guidance
provided by OJP. During our audit and report preparation, we made
numerous requests to PFP to provide documentation and explanations of
actions taken during the grant award periods. PFP did not provide the
requested documentation or explanations to satisfy our concerns as this
report demonstrates. In addition, without documentation of the




                                    - 38 ­
communication or guidance that occurred with OJP, we cannot comment on
PFP’s statements.

Overview of Program Events and Circumstances

      In PFP’s response, it disputed the substance of the draft audit report
regarding disallowances. It goes on to say that PFP has functioned and
performed in good faith and when errors were made, PFP immediately took
action to rectify the errors. In reviewing this discussion, we noted that none
of the statements minimize or negate the findings and questioned costs
contained in our report.

      PFP’s response then listed the factors it believed impacted the
program. We have already included a discussion of these circumstances in
our report, where appropriate, and again note that these factors do not
eliminate or mitigate the findings in the report, but instead demonstrate the
causes for some of the findings we’ve noted. These factors are further
discussed below.

Unique Circumstances and Events

      Revised Budget. In this section, PFP stated our audit contends that
PFP revised a budget but did not receive “official” approval. However, our
report makes no mention of a revised budget that was not approved. The
budget section of our report relied on the approved financial clearance
memoranda and the budgeted amounts it included. This revised budget was
sent to OJP and approved as the final budget in November 2007. At no time
during our audit were we presented with a subsequent revised budget or
budget request.

      Program Award Ambiguities. PFP stated in its response that its grant
proposal was for a 3-year $2 million grant. Further, PFP believed that OJP
funded its proposed program stating “a $666,667 award for 3 years at our
proposed program scale was clearly an inadvertent error on the part of the
grantor agency.” However, the grant award documents clearly show the
awarded grant was for a 3-year $666,667 grant and any reference to its
oversight of the correct amount and duration of the grant does not justify
the mismanagement of grant funds.

      PFP’s argument that it should have been given $2 million is irrelevant
as PFP was in fact granted $666,667 for a 3-year grant period.

     PFP also offered a listing of events and circumstances that occurred
between its administration and OJP during the grant program. We cannot


                                    - 39 ­
comment on any communications between PFP and OJP that have not been
formally documented, and we addressed PFP’s suggestion that it submitted a
revised budget earlier in our response. While PFP did submit and receive
approval of a revised budget in November 2007, this budget provided for the
actual approved grant funding of $666,667 not the requested $2 million.

      PFP stated in its response that during the grant period OJP never
raised any concerns regarding the Federal Financial Reports submitted by
PFP. However, we would note that these reports are to contain the actual
expenditures as incurred for the reporting period, and to imply that OJP
could have identified concerns regarding the administration of the grants
beyond that, we believe, is unreasonable.

       In its response, PFP also stated that internal personnel and
management changes contributed to its grant program’s inefficiencies. PFP
went on to say the program began in the midst of a major organizational
transition where three different people occupied the company’s key financial
position (Head of Finance). This may be a cause of the financial and
program missteps for the two grants we audited, however, in our judgment,
if proper financial and programmatic policies and procedures were in place
and monitored, the missteps may not have occurred. In any case, the funds
were not properly managed and that led to the findings in the report.

       PFP also stated it received a grant from the Department of Health and
Human Services (HHS) for a similar program with similar goals and
outcomes. PFP went on to say differentiating these programs was an
ongoing challenge for many within the organization and that a good faith
effort to sustain the clearest level of differentiation possible was made
during the grant periods. However, during our transaction testing, the
expenditures were clearly divided 50 percent to HHS grant, 50 percent to
DOJ grant(s) and we could not identify any differentiation being made
between the HHS program and DOJ program.

      Finally within this section of PFP’s response, it states that it provided
the indirect cost allocation method it used for the grant-funded program to
the OIG. However, after numerous attempts during the audit, PFP was
unable to provide the methodology or numbers used to compute the indirect
cost rate used for the audited grants. In our report we state PFP did not
have an approved indirect cost rate and therefore cannot charge indirect
costs to the grant. This issue is also further discussed in recommendation 5
below.




                                    - 40 ­
General Response to Draft Audit Report

      In its response, PFP stated that it vehemently disputes our contention
regarding the modification of the budget and matters related to this grant
award and the grant audit process.

     (1) PFP raised the budget issue, discussed earlier in our response,
         again within this section stating that OJP’s reply to PFP’s request to
         submit a revised budget was answered with a short and terse “No”
         in an e-mail exchange between PFP and OJP. However, we believe
         the e-mails provided deal with OJP’s efforts to have PFP refund the
         $375,000 in excessive drawdowns. The short and terse “No”
         response PFP references, we believe, indicated only that OJP was
         interested in the repayment of the funds not the submission of
         another budget. We do not believe OJP was refusing to allow PFP
         to submit a revised budget.

     (2) PFP stated that although it has been and remains candid about its
         program and operations, it did not receive a copy of the OJP
         Financial Guide. However, within the documentation PFP received
         for each award, special conditions that the grantee must follow are
         included, including the first special condition that states, “the
         recipient agrees to comply with the financial and administrative
         requirements set forth in the current edition of the Office of Justice
         Programs (OJP) Financial Guide.” In addition, PFP went on to cite
         numerous areas of DOJ program weaknesses that contributed to
         the issues we identified in our audit.

     (3) PFP stated the DOJ (we assume that PFP is referring to the OIG)
         consistently refused to grant possible waiver and credit for any
         rationale provided explaining PFP’s decision making process. As
         stated in our report, the objective of our audit was to determine
         whether reimbursements claimed for costs under the grants were
         allowable, supported, and in accordance with applicable laws,
         regulations, guidelines, and the terms and conditions of the grants.
         The OIG cannot grant waivers or give credit for any actions not
         complying with the OJP Financial Guide. PFP stated that DOJ (OIG)
         has ignored any and all verbal interactions between PFP and DOJ
         during the program period. However, we were provided nothing to
         support any approvals or interactions with OJP to change the
         findings in our report. In addition, in the OJP response to our audit
         report, OJP agreed with all of our audit findings.




                                    - 41 ­
      In the last paragraph of PFP’s response, PFP stated that the lack of
experience of PFP’s Finance Director and collaborative challenges with DOJ
resulted to the detriment of the overall application of this grant. We do not
believe that lack of experience and collaborative challenges are reasonable
explanations to excuse the misspending and mishandling of grant funds.
The OJP Financial Guide provides detailed policies and procedures grantees
must follow when receiving OJP funds. In PFP’s response, it clearly stated it
was unaware of this guide during the execution of the grant program and
therefore did not follow the OJP guidance. However, it cited this guide in its
application and acknowledged its existence and the requirement to adhere to
it when it accepted the grants.

Summary of Actions Necessary to Close the Report

   1. Resolved. OJP agreed with our recommendation to remedy the
      $353,805 in unallowable employee salaries. OJP stated in its response
      that it will coordinate with PFP to obtain documentation regarding the
      questioned expenditures. OJP stated it will request a final
      determination from BJA and OJJDP regarding the allowability of the
      personnel expenditures. If the expenditures are determined to be
      unallowable, OJP will request that PFP return the funds to DOJ.

      In its response, PFP disagreed with our recommendation. Specifically,
      PFP stated it did not receive a copy of the OJP Financial Guide. Again,
      the award documentation received for each award contains special
      conditions that the grantee must follow. The first special condition for
      the grants PFP agreed to receive stated, “the recipient agrees to
      comply with the financial and administrative requirements set forth in
      the current edition of the Office of Justice Programs (OJP) Financial
      Guide.” In addition, PFP in its original application agreed to comply
      with all the OJJDP financial requirements including the Financial Guide.

      In its response, PFP also stated the sentence quoted in the DOJ Draft
      Audit was inaccurate, unreliable and incomplete. According to PFP, the
      OJP Financial Guide states, “Two or More Federal Grant Programs.
      Where salaries apply to the execution of two or more grant programs,
      cost activities, project periods, and/or overlapping periods, proration
      of costs to each activity must be made based on time and/or effort
      reports.” We believe the statement in our report reflects the intent of
      the OJP Financial Guide. As stated in our draft report, since there
      were two grants, the amount charged to each grant must be based on
      time and effort reports. We reviewed timesheets and found the
      employees did not track time spent on individual programs. As we
      stated in our report, “We were not provided any other documentation


                                    - 42 ­
  of time and effort to substantiate that 25 percent of these salaries was
  an appropriate allocation to charge to the grant.”

  This recommendation can be closed when we receive documentation
  that OJP has remedied the $353,805 in unallowable salaries.

2. Resolved. OJP agreed with our recommendation to remedy the
   $66,924 in unallowable fringe benefits. OJP stated in its response that
   it will coordinate with PFP to obtain documentation regarding the
   questioned expenditures. OJP will request a final determination from
   BJA and OJJDP regarding the allowability of the fringe benefits
   expenditures. If the expenditures are determined to be unallowable,
   OJP will request that PFP return the funds to DOJ.

  PFP responded to recommendations 1 and 2 collectively; therefore, the
  response to recommendation 1 is the same as recommendation 2,
  where PFP disagreed with our recommendation.

  This recommendation can be closed when we receive documentation
  that OJP has remedied the $66,924 in unallowable fringe benefits.

3. Resolved. OJP agreed with our recommendation to remedy the
   $34,834 in unallowable expenditures outside the scope of the
   approved budget or used for purposes not permitted under the
   awards. OJP stated in its response that it will coordinate with PFP to
   obtain documentation regarding the questioned expenditures. OJP will
   request a final determination from BJA and OJJDP regarding the
   allowability of the expenditures. If the expenditures are determined to
   be unallowable, OJP will request that PFP return the funds to DOJ.

  In its response, although PFP acknowledges that this “budget
  monitoring arena required strengthening”, the $34,834 represents less
  than 4 percent of the total grant amount. PFP asked that this
  disallowance be waived and stated after performing an internal
  program assessment, PFP engaged consultants to provide much
  needed technical assistance.

  The $34,834 in unallowable costs consists of $22,201 for consultant
  payments, $8,935 for gift cards, $1,413 for food, and a number of
  other unallowable expenses totaling $2,285. OJP may remedy the
  costs using a variety of methods, including the provision of additional
  documentation, recovering the costs, and waiver. The specific method
  of remedy will be determined by OJP in its management decision. In
  addition, although these costs represent less than four percent of the


                                - 43 ­
  grant amount, they were not approved and were outside the scope of
  the project and therefore we consider them to be unallowable.

  This recommendation can be closed when we receive documentation
  that OJP has remedied the $34,834 in unallowable expenditures.

4. Resolved. OJP agreed with our recommendation to remedy the
   $9,631 in unsupported expenditures including background checks and
   recruiting mentors. In its response, OJP stated it will coordinate with
   PFP to obtain documentation to support the expenditures. If adequate
   documentation cannot be provided, OJP will request that PFP return
   the funds to DOJ.

  In its response, PFP requested additional time to pursue secondary
  sources to generate the supporting documentation for these program
  expenses or once again, consider waiving the disallowance. However,
  PFP was made aware of the specific unsupported expenditures during
  our audit and was again provided a spreadsheet detailing the
  questioned expenditures in October 2012. PFP has yet to provide
  support for these expenditures. This recommendation can be closed
  when we receive documentation that OJP has remedied the $9,631 in
  unsupported expenditures.

5. Resolved. OJP agreed with our recommendation to remedy the
   $232,754 in unallowable indirect costs. OJP stated in its response that
   it will coordinate with PFP to remedy the questioned costs.

  In its response, PFP stated OJP should have recognized this issue
  through the submitting of quarterly financial reports. We note,
  however, that quarterly financial reports provide summary information
  and OJP would have no way to identify unallowable indirect costs
  through this reporting mechanism. In addition, PFP did not categorize
  these costs as indirect costs within the reports and again, OJP would
  have no way of knowing PFP was charging indirect costs to the grant.
  This recommendation can be closed when we receive documentation
  that OJP has remedied the $232,754 in unallowable indirect costs.

6. Resolved. OJP agreed with our recommendation to remedy the
   $195,497 in excess drawdown. OJP stated in its response that it will
   coordinate with PFP to remedy the questioned drawdowns.

  In its response, PFP agreed with the recommendation and agreed to
  return these funds to OJP.



                                - 44 ­
  This recommendation can be closed when we receive documentation
  that OJP has remedied the $195,497 in drawn down expenditures not
  supported in the accounting records.

7. Resolved. OJP agreed with our recommendation to ensure PFP
   enhances its financial management system to adequately safeguard,
   document, and properly account for grant funds. In its response, OJP
   stated it will coordinate with PFP to obtain a copy of procedures
   implemented to ensure that its financial management system is
   enhanced to adequately safeguard, document, and properly account
   for federal grant funds.

  In its response, PFP agreed with our recommendation and stated that
  it is developing an internal financial management guide and the CEO
  and senior management will conduct regularly scheduled meetings to
  ensure proper execution of programs to monitory compliance with
  federal standards.

  This recommendation can be closed when we receive documentation
  demonstrating that PFP has procedures in place to ensure adequate
  safeguarding and accounting for grant funds.

8. Resolved. OJP agreed with our recommendation to ensure that PFP
   requests grant funds based on immediate disbursement/
   reimbursement of actual grant expenditures. In its response, OJP
   stated it will coordinate with PFP to obtain a copy of procedures
   implemented to ensure that it requests grant funds based on
   immediate disbursement needs for actual grant expenditures.

  In its response, PFP agreed with our recommendation and stated that
  any requests it makes for advance payment of federal funds in the
  future will be limited to immediate and approved program expenses
  not to exceed PFP’s anticipated expenditures during the allowable
  drawdown period.

  This recommendation can be closed when we receive documentation
  demonstrating that PFP has procedures in place to ensure requests for
  grant funds are based on immediate disbursement/reimbursement of
  actual grant expenditures.

9. Resolved. OJP agreed with our recommendation to ensure that PFP
   implements and adheres to procedures that will result in the timely
   submission of Federal Financial Reports (FFR). In its response, OJP



                                - 45 ­
  stated it will coordinate with PFP to obtain a copy of procedures

  implemented to ensure that FFRs are timely submitted.


  In its response, PFP agrees with our recommendation. PFP stated it is
  aware of the reporting deadlines and, during the awarding process,
  spoke with OJP about the FFR deadlines and detailed guidelines for
  facilitating budget related responsibilities. PFP went on to say it
  regularly meets the performance and financial reporting deadlines.
  This recommendation can be closed when we receive documentation
  demonstrating that PFP has procedures in place to ensure timely
  submission of FFRs.

10. Resolved. OJP agreed with our recommendation to ensure that PFP
   implements procedures to ensure that expenses reported on future
   FFRs are based on actual expenditures for the reporting period. In its
   response, OJP stated it will coordinate with PFP to obtain a copy of
   procedures implemented to ensure that expenses reported on future
   FFRs are based on actual expenditures for the reporting period.

  In its response, PFP did not agree with this finding and stated the
  recommendation infers PFP did not base the FFR figures on actual
  expenses. In our audit report, we do not infer PFP did not base the
  FFRs on actual expenses, we directly state that PFP was unable to
  provide any evidence that FFRs were based on actual expenses. In
  our report we stated PFP was unable to provide a methodology for
  calculating the amounts contained within the FFRs. We determined
  that the FFRs did not match the accounting records (PFP expenses)
  and we were unable to determine how PFP calculated the amounts
  recorded on the FFRs.

  This recommendation can be closed when we receive documentation
  demonstrating that PFP has procedures in place to ensure FFRs are
  based on actual expenditures for the reporting period.

11. Resolved. OJP agreed with our recommendation to ensure that PFP
   implements and adheres to procedures that will result in the timely
   submission of supported progress reports. In its response, OJP stated
   it will coordinate with PFP to obtain a copy of procedures implemented
   to ensure that progress reports are properly supported and timely
   submitted.

  In its response, PFP agreed with the recommendation stating it is
  actively aware of programmatic performance reporting deadlines. PFP
  also stated its executive management meets regularly with program


                                - 46 ­
  and finance staff to receive, review, and respond to progress reports
  provided by the staff.

  This recommendation can be closed when we receive documentation
  demonstrating that PFP has procedures in place to ensure timely
  submission of supported progress reports.

12. Resolved. OJP agreed with our recommendation to ensure that PFP
   implements and adheres to procedures to track expenditures by
   budget categories and to monitor budget versus actual spending on a
   consistent and ongoing basis. In its response, OJP stated it will
   coordinate with PFP to obtain a copy of procedures implemented to
   ensure that expenditures are tracked by budget categories and that
   budgeted versus actual expenditures are monitored on a consistent
   and ongoing basis

  In its response, PFP agreed with the recommendation and stated it has
  a process for expending funds, including ensuring expenditures follow
  the financial guide, confirming clarity with the OJP, detailing
  descriptions on purchase orders and invoices, assigning duties among
  team members, recording transactions in real time, reconciling and
  using a checklist.

  This recommendation can be closed when we receive documentation
  demonstrating that PFP has procedures in place to ensure it
  implements and adheres to procedures to track expenditures by
  budget categories and to monitor budget versus actual spending on a
  consistent and ongoing basis.

13. Resolved. OJP agreed with our recommendation to ensure that PFP
   develops grant performance measures and monitors the performance
   of the grant to ensure that PFP reaches the program goals and
   objectives. In its response, OJP stated it will coordinate with PFP to
   obtain a copy of procedures implemented to ensure that grant
   performance measures are developed; and that grants are properly
   monitored to ensure that the program goals and objectives are
   attained.

  In its response, PFP agreed with the recommendation, stating that at
  the commencement of a grant, a development and transition team
  discusses the performance standards, guidelines and metrics in order
  to customize its internal tracking systems and processes. Its internal
  information gathering assessment tools are integrated with
  contractors’ for data congruency. We did not find that this process


                                 - 47 ­
took place for the audited grants, but PFP’s response may have been
speaking of current procedures for performance.

This recommendation can be closed when we receive documentation
demonstrating that PFP develops grant performance measures and
monitors the performance of the grant to ensure that PFP reaches the
program goals and objectives.




                             - 48 ­
